                                   SOCIAL SECURITY
MEMORANDUM

Date:   August 22, 2002

To:     The Commissioner

From:   Inspector General

Subject:TheSocial Security Administration Continues Assigning Original Social Security
        Numbers To Foreign-Born Individuals Who Present Invalid Evidentiary
        Documents (A-08-02-12056)


        The attached final report presents the results of our audit. The objectives of the audit
        were to determine (1) the estimated number of original Social Security numbers the
        Social Security Administration (SSA) assigned to foreign-born individuals who
        presented invalid/inappropriate evidentiary documents and (2) whether SSA adequately
        addressed recommendations in our September 2000 report, Procedures for Verifying
        Evidentiary Documents Submitted with Original Social Security Number Applications.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                           James G. Huse, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 THE SOCIAL SECURITY ADMINISTRATION
 CONTINUES ASSIGNING ORIGINAL SOCIAL
  SECURITY NUMBERS TO FOREIGN-BORN
   INDIVIDUALS WHO PRESENT INVALID
       EVIDENTIARY DOCUMENTS

     August 2002    A-08-02-12056



 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       Executive Summary
OBJECTIVE
The objectives of the audit were to determine (1) the estimated number of original
Social Security numbers (SSN) the Social Security Administration (SSA) assigned to
foreign-born individuals who presented invalid/inappropriate evidentiary documents and
(2) whether SSA adequately addressed recommendations in our September 2000
report, Procedures for Verifying Evidentiary Documents Submitted with Original Social
Security Number Applications.

BACKGROUND
One of the key elements SSA employs to administer the Nation’s Social Security
system is the SSN. The expanded use of the SSN and the ease with which individuals
can counterfeit documents provide a motive and a method for individuals to improperly
acquire an SSN. Once an individual obtains an SSN card, they can use it for a variety
of illegal purposes, such as hiding their true identity. SSA issues almost 6 million
original SSN cards each year, of which almost 2 million are issued through field offices
(FO) and the remainder through the Enumeration-at-Birth process.

Our September 2000 report, Procedures for Verifying Evidentiary Documents Submitted
with Original Social Security Number Applications, concluded SSA’s controls did not
prevent individuals from improperly obtaining SSNs with invalid/inappropriate
evidentiary documents. To address improper SSN attainment, we recommended SSA
employ preventative controls in its enumeration process, such as independently
verifying all non-citizen evidentiary documents, before approving SSN applications.
SSA responded that, while it shared our commitment to eliminating opportunities for
SSN fraud, management believed long-term system enhancements, rather than
independent verifications of evidentiary documents, would provide the most benefit.

SSA refers to the process of assigning original SSNs as enumeration. When an
individual not enumerated through the Enumeration-at-Birth process applies for an
original SSN, he or she must complete, sign, and submit an Application for a Social
Security Card (Form SS-5) to an SSA FO. SSA requires each applicant to provide
acceptable documentary evidence of (1) age, (2) identity, and (3) U.S. citizenship or
lawful alien status. Foreign-born applicants must also show evidence of U.S.
citizenship, work-authorized lawful alien status, or current documentation of eligibility for
a federally funded benefit or service. After FO personnel review the Form SS-5 and
determine the validity of supporting evidentiary documents, they certify and enter
applicant information into SSA’s Modernized Enumeration System (MES). Once
certified, the SSN application undergoes numerous automated edits to validate
applicant information. If the application passes these edits, SSA systems assign an
SSN, issue an SSN card, and establish and/or update SSA’s master files.



SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)                i
To determine the estimated number of original SSNs the Agency assigned to
foreign-born individuals who presented invalid/inappropriate evidentiary documents, we
obtained a data extract from SSA’s MES Transaction History File for Calendar Year
(CY) 2000. From this extract, we identified a population of 1,266,767 work-authorized
individuals to whom SSA assigned original SSNs. We then randomly selected and
reviewed a sample of 250 records. For each of the sampled SSNs, we verified the
foreign-born individual’s immigration status at the time of the application with the
Immigration and Naturalization Service (INS) or the Department of State (DoS) to
determine the applicant’s eligibility for an SSN. We provided INS and DoS with a
description of the evidence FO personnel recorded on the SSN application. To
determine whether SSA adequately addressed recommendations made in our
September 2000 report, we reviewed actions SSA had taken to address our findings.
We reviewed current enumeration policy and procedures, interviewed SSA personnel
responsible for coordinating enumeration-related issues with other Federal agencies,
and obtained updates on MES enhancements.

This report serves as a follow-up review and addresses our previous recommendations
made to improve the integrity of SSA’s enumeration process.

RESULTS OF REVIEW
We estimate SSA assigned 96,274 original SSNs to foreign-born individuals who
presented invalid/inappropriate INS documents in CY 2000. This figure represents
8 percent of the 1.2 million original SSNs the Agency assigned to foreign-born,
work-authorized individuals during this period. INS either had no record of these
individuals or INS’ records did not agree with the evidentiary documents presented to
SSA. In either case, based on our verifications with INS, SSA should not have assigned
these SSNs. We estimate 42 percent of the individuals to whom SSA improperly
assigned SSNs had earnings posted to their accounts. We found no earnings posted to
SSA records for the remaining individuals. Although we do not know how these
individuals used the SSNs, we previously reported that individuals who improperly
obtain SSNs often use them to commit various illegal activities. With increased
occurrences of identity fraud crimes in recent years and the rising importance of
homeland security, we believe improperly assigning 1 of every 13 SSNs to foreign-born
individuals is unacceptable, and SSA must make immediate changes in its enumeration
process.

We acknowledge SSA’s progress toward implementing recommendations we made in
our September 2000 report, Procedures for Verifying Evidentiary Documents Submitted
with Original Social Security Number Applications. We also recognize it has been less
than 2 years since we issued this report. However, our current review indicates SSA
has not adequately addressed all of the recommendations. We believe the corrective
actions we suggested are paramount to ensuring SSN integrity. Of our six prior audit
recommendations, SSA adequately addressed two, elected not to implement one, and
did not adequately address three others. First, SSA still does not independently verify
with the issuing Agency all non-citizen evidentiary documents before assigning SSNs,


SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)         ii
although SSA's Commissioner has committed to doing so in the near future. SSA has
provided its FOs manual access to DoS’ Refugee Data Center. Additionally, SSA has
provided FOs with on-line access to INS’ Non-immigrant Information System (NIIS).
SSA plans to phase in its use at all FOs by September 2002. Second, SSA has not
implemented an Enumeration at Entry program, even though the Agency is working with
INS and DoS to begin its initial phase. Third, SSA has not implemented systems
controls that would interrupt SSN assignment in suspicious situations, although the
Agency has taken steps toward designing such controls. We believe further
implementation delays will only impede SSA’s ability to prevent improper attainment of
SSNs.

CONCLUSION AND RECOMMENDATIONS
Failure to protect the SSN’s integrity can have enormous consequences for our Nation
and its citizens. Now more than ever, SSA must be particularly cautious in striking a
balance between customer service and SSN integrity. We recognize that increased
SSN integrity measures will impact the time necessary to process original SSN
applications. However, given the large number of SSNs the Agency assigned to
foreign-born individuals who presented invalid/inappropriate INS documents, we believe
SSA should immediately employ preventative controls in its enumeration process.
Failure to do so seriously compromises SSN integrity, which, ultimately, could impact
our homeland security. Accordingly, we recommend that SSA:

·   Continue its plan to expeditiously implement our prior audit recommendation to
    obtain independent verification of all non-citizen evidentiary documents before
    issuing SSNs.

·   Expedite our prior audit recommendation to implement systems controls that would
    interrupt SSN assignment when SSA mails multiple cards to common addresses or
    when parents claim an improbably large number of children.

AGENCY COMMENTS
SSA stated our findings and conclusions were based on a review of SSNs issued before
SSA’s Enumeration Task Force undertook various enumeration initiatives related to the
terrorist attacks of September 11, 2001. SSA also stated that SSNs assigned in the
period covered by the review were not subjected to the same scrutiny as SSNs
assigned in the months following the attacks. Additionally, SSA plans to open
Enumeration Centers in several large metropolitan areas to ensure only qualified
individuals with valid documents will receive SSN cards.

In its response to Recommendation 1, SSA agreed to expeditiously implement our prior
audit recommendation to obtain independent verification of all non-citizen evidentiary
documents before issuing SSNs. SSA stated it has already initiatied verification of INS
documents and is committed to full collateral verification by September 1, 2002.



SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)       iii
Regarding Recommendation 2, the Agency stated it remains committed to the long-term
fraud initiatives that would interrupt SSN assignment when SSA mails multiple cards to
common addresses or when parents claim an improbably large number of children. The
Agency responded it has not implemented systems controls because such
enhancements are a complex and difficult undertaking, and its resources have been
used for post-September 11 enumeration initiatives.

SSA also provided technical comments that we considered and incorporated, where
appropriate. The full text of SSA’s comments is included in Appendix E.

OFFICE OF THE INSPECTOR GENERAL RESPONSE
We believe the Agency’s response and planned actions adequately address
Recommendation 1. We acknowledge the steps SSA has taken to strengthen the
integrity of the enumeration process and recognize the Agency’s heightened awareness
of proper SSN assignment. We also recognize that our audit period was before the
Agency undertook various enumeration initiatives in response to the September terrorist
attacks. We believe full collateral verification, once implemented in all FOs, should
significantly improve the integrity of the enumeration process. We plan to assess the
effectiveness of the changes the Agency has made since September 11, 2001 in
Fiscal Year 2003.

Regarding SSA’s response to Recommendation 2, we acknowledge SSA’s commitment
to the long-term fraud initiatives and understand the complexity involved in creating
databases to evaluate relationships that current systems cannot assess. However, we
continue to believe further implementation delays will only impede SSA’s ability to
prevent improper SSN attainment. Therefore, we encourage SSA to commit the
necessary resources to expedite implementation of the systems enhancements we
recommended.




SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)     iv
                                                         Table of Contents
                                                                                                             Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................4

SSA Continues to Assign Original SSNs to Foreign-Born Individuals
Based on Invalid/Inappropriate INS Documents......................................................5

SSA Has Taken Steps to Improve SSN Integrity But Has Not Adequately
Addressed Prior Recommendations........................................................................6

CONCLUSIONS AND RECOMMENDATIONS ......................................................9

APPENDICES

APPENDIX A – Evidentiary Requirements: Foreign-Born Individuals
             Applying for Original Social Security Numbers

APPENDIX B – Sample Methodology and Appraisal

APPENDIX C – Status of Prior Office of the Inspector General
             Report Recommendations

APPENDIX D – Status of the Social Security Administration’s Enumeration
             Task Force Initiatives

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments




SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)
                                                                   Acronyms
    ASVI           Alien Status Verification Index
    CY             Calendar Year
    DoS            Department of State
    FO             Field Office
    GAO            General Accounting Office
    I-94           Arrival/Departure Record
    INS            Immigration and Naturalization Service
    MES            Modernized Enumeration System
    NIIS           Non-immigrant Information System
    POMS           Program Operations Manual System
    SAVE           Systematic Alien Verification for Entitlements
    SS-5           Application for a Social Security Card
    SSA            Social Security Administration
    SSN            Social Security Number




SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)
                                                                    Introduction
OBJECTIVE
The objectives of the audit were to determine (1) the estimated number of original
Social Security numbers (SSN) the Social Security Administration (SSA) assigned to
foreign-born individuals who presented invalid/inappropriate evidentiary documents1
and (2) whether SSA adequately addressed recommendations we made in our
September 2000 report, Procedures for Verifying Evidentiary Documents Submitted with
Original Social Security Number Applications. 2

BACKGROUND
One of the key elements SSA employs to administer the Nation’s Social Security
system is the SSN.3 The expanded use of the SSN and the ease with which individuals
can counterfeit documents provide a motive and a method for individuals to improperly
acquire an SSN. Once an individual obtains an SSN card, they can use it for a variety
of illegal purposes, such as hiding their true identity. SSA issues almost 6 million
original SSN cards each year, of which almost 2 million are issued through field offices
(FO) and the remainder through the Enumeration-at-Birth process.

Our September 2000 report found SSA’s controls did not prevent individuals from
improperly obtaining SSNs with invalid/inappropriate evidentiary documents. To
address improper SSN attainment, we recommended SSA employ preventative controls
in its enumeration process, such as independently verifying all non-citizen evidentiary
documents, before approving SSN applications. SSA responded that, while it shared
our commitment to eliminating opportunities for SSN fraud, management believed
long-term system enhancements, rather than independent verifications of evidentiary
documents, would provide the most benefit.

This report serves as a follow-up review and addresses our previous recommendations
made to improve the integrity of SSA’s enumeration process.




1
 We define invalid/inappropriate evidentiary documents as those for which either the Immigration and
Naturalization Service (INS) had no record of an individual’s entry into the United States or INS’ records
did not agree with documents the individual presented to SSA. For the latter, individuals either presented
SSA with INS documents that improperly showed them as work-authorized or authorized to remain in the
country.
2
    Http://www.ssa.gov/oig/adobepdf/A-08-98-41009.pdf.
3
    See 42 U.S.C. 405(c)(2)(B)(i).


SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)                         1
How SSA Verifies Evidentiary Documents and Assigns Original SSNs

SSA refers to the process of assigning original SSNs as enumeration.4 When an
individual not enumerated through the Enumeration-at-Birth process applies for an
original SSN, he or she must complete, sign, and submit an Application for a Social
Security Card (Form SS-5) to an SSA FO.5 SSA requires each applicant to provide
acceptable documentary evidence of (1) age, (2) identity, and (3) U.S. citizenship or
lawful alien status.6 Foreign-born applicants must also show evidence of
U.S. citizenship, work-authorized lawful alien status, or current documentation of
eligibility for a federally funded benefit or service.7 Appendix A contains specific
evidentiary requirements for foreign-born individuals.

FO personnel can verify documents (1) through visual inspection, including use of a
black light where appropriate, and/or (2) with the issuing Agency through on-line or
manual verification.8 If an immigrant has been in the United States for 30 days or
longer and the Immigration and Naturalization Service (INS) has assigned them an alien
registration number, SSA requires FO personnel to verify the validity of INS documents
via INS’ Alien Status Verification Index (ASVI).9 If ASVI shows no record of the
immigrant, then FO personnel complete a paper form (G-845) and mail it to INS for
verification. Although ASVI has not historically provided FOs timely information, INS is
working toward improving its Systematic Alien Verification for Entitlements (SAVE)10
program’s timeliness. If an immigrant has been in the United States less than 30 days,
SSA policy does not require FO personnel to verify documents with INS.11

After FO personnel review the SS-5 and determine the validity of supporting evidentiary
documents, they certify and enter applicant information into SSA’s Modernized
Enumeration System (MES). Once certified, the SSN application undergoes numerous
automated edits to validate applicant information. If the application passes these edits,



4
 The enumeration process also includes SSA issuing replacement cards to people with existing numbers
and verifying SSNs for employers and other Federal agencies. Program Operations Manual System
(POMS), sections RM 00202.030 and TC 31001.090.
5
    POMS, section RM 00202.001 A.
6
    POMS, section RM 00203.001 C.
7
    Id.
8
    POMS, sections GN 00303.400 C. and RM 00203.740.
9
 POMS, section RM 00203.740; INS’ ASVI is a nationally accessible database of selected immigration
status information.
10
  INS’ SAVE program enables Federal agencies to obtain information from this database, either on-line
or manually.
11
     SSA Policy Instruction BOS 02-007 GS (March 19, 2002).


SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)                        2
SSA systems assign an SSN, issue an SSN card, and establish and/or update SSA’s
master files.12

Foreign-born Individuals Entering the United States

Foreign-born individuals enter the United States as U.S. citizens, immigrants or
nonimmigrants. Immigrants are commonly admitted as permanent lawful residents to
whom INS issues Alien Registration Receipt Cards. These documents include an alien
registration number SSA can verify through INS’ SAVE program. Nonimmigrants are
temporary residents whom INS grants limited stay in the United States for a specific
purpose, such as foreign Government officials, students, temporary workers, and
exchange visitors. All non-citizens legally entering the United States complete INS’
Arrival/Departure Record (I-94). INS places an admission stamp on the I-94 then
initials, dates, and, for nonimmigrants, hand writes their admission class on the
document. Depending on the class of admission, INS permits some nonimmigrants to
work while they are in the United States. As such, SSA personnel must review INS’
“admission classifications” to determine whether nonimmigrants are eligible for an SSN.

SCOPE AND METHODOLOGY
To determine the estimated number of original SSNs the Agency assigned to
foreign-born individuals who presented invalid/inappropriate evidentiary documents, we
obtained a data extract from SSA’s MES Transaction History File for Calendar
Year (CY) 2000. From this extract, we identified a population of 1,266,767
work-authorized individuals to whom SSA assigned original SSNs. We then randomly
selected and reviewed a sample of 250 records (Appendix B). For each of the sampled
SSNs, we verified the foreign-born individual’s immigration status at the time of the
application with the Immigration and Naturalization Service (INS) or the Department of
State (DoS) to determine the applicant’s eligibility for an SSN. We provided INS and
DoS with a description of the evidence FO personnel recorded on the SSN application.
While we made every attempt to verify the documented evidence descriptions with INS
and DoS, we did not determine the reliability of the information systems at these
agencies.

To determine whether SSA adequately addressed recommendations in our
September 2000 report, we reviewed actions SSA had taken to address our findings.
We reviewed current enumeration policy and procedures, interviewed SSA personnel
responsible for coordinating enumeration-related issues with other Federal agencies,
and obtained updates on MES enhancements.

SSA entities audited were the Offices of Program Benefits under the Deputy
Commissioner for Disability and Income Security Programs and Systems Analysis
under the Deputy Commissioner for Systems. We conducted our work from
December 2001 through April 2002 in accordance with generally accepted government
auditing standards.
12
   The NUMIDENT file houses records of original and replacement SSN cards issued over an individual’s
lifetime, as well as identifying information such as date of birth, place of birth, and parent’s names.


SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)                      3
                                                 Results of Review
We estimate SSA assigned 96,274 original SSNs to foreign-born individuals who
presented invalid/inappropriate INS documents in CY 2000. This figure represents
8 percent of the 1.2 million original SSNs the Agency assigned to foreign-born,
work-authorized individuals during this period. Either INS had no record of these
individuals or INS’ records did not agree with the evidentiary documents presented to
SSA. In either case, based on our verifications with INS, SSA should not have assigned
these SSNs. We estimate 42 percent of the individuals to whom SSA improperly
assigned SSNs had earnings posted to their accounts. We found no earnings posted to
SSA records for the remaining individuals. Although we do not know how these
individuals used the SSNs, we previously reported that individuals who improperly
obtain SSNs often use them to commit various illegal activities.13 With increased
occurrences of identity fraud crimes in recent years and the rising importance of
homeland security, we believe improperly assigning 1 of every 13 SSNs to foreign-born
individuals is unacceptable, and SSA must make immediate changes in its enumeration
process.

We acknowledge SSA’s progress toward implementing recommendations we made in
our September 2000 report, Procedures for Verifying Evidentiary Documents Submitted
with Original Social Security Number Applications. We also recognize it has been less
than 2 years since we issued this report. However, our current review indicates SSA
has not adequately addressed all of the recommendations. We believe the corrective
actions we suggested are paramount to ensuring SSN integrity. Of our six prior audit
recommendations, SSA adequately addressed two, elected not to implement one, and
did not adequately address three others. First, SSA still does not independently verify
with the issuing Agency all non-citizen evidentiary documents before assigning SSNs,
although SSA's Commissioner has committed to doing so in the near future. SSA has
provided its FOs manual access to DoS’ Refugee Data Center. Additionally, SSA has
provided FOs with on-line access to INS’ Non-immigrant Information System (NIIS).14
SSA plans to phase in its use at all FOs by September 2002. Second, SSA has not
implemented an Enumeration at Entry program, although the Agency is working with
INS and DoS to begin its initial phase. Third, SSA has not implemented systems
controls that would interrupt SSN assignment in suspicious situations, although the
Agency has taken steps toward designing such controls. We believe further
implementation delays will only impede SSA’s ability to prevent improper attainment of
SSNs.



13
  Social Security Number Integrity: An Important Link in Homeland Security (A-08-02-22077), May 2002,
and Using Social Security Numbers to Commit Fraud (A-08-99-42002), May 1999.
14
  INS’ NIIS provides automation support for tracking non-immigrant foreign nationals arrivals and
departures.


SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)                    4
SSA CONTINUES TO ASSIGN ORIGINAL SSNs TO FOREIGN-BORN
INDIVIDUALS BASED ON INVALID/INAPPROPRIATE INS DOCUMENTS
                                        Of the 1.2 million SSNs SSA assigned in
                                        CY 2000 to foreign-born, work-authorized
  SSA Assigned About 100,000
                                        individuals, we estimate SSA assigned
  SSNs in CY 2000 Based on
                                        96,274 SSNs (8 percent) based on
  Invalid/Inappropriate INS
                                        invalid/inappropriate evidentiary documents
  Documents
                                        (Appendix B). These SSN applicants presented
                                        SSA with invalid/inappropriate INS documents to
                                        provide evidence of their age, identity, and work
authorization or legal alien status. Thus, based on our verifications with INS, SSA
should not have assigned these SSNs. We believe the following examples illustrate
SSA’s vulnerability to non-citizens who improperly obtain SSNs with
invalid/inappropriate evidentiary documents.

INS Had No Record of Individuals’ Entries into the United States

We estimate SSA assigned 76,006 (79 percent) of the 96,274 SSNs to individuals for
whom INS had no record of their entries into the United States. Following are some
examples from our review.

·   SSA assigned SSNs to two individuals (both age 28) purporting to have been born in
    India. These individuals provided documents improperly showing them as
    work-authorized; however, INS had no records of the two individuals.

·   SSA assigned SSNs to alleged students (ages 16 and 19) purporting to have been
    born in Pohnpei, which is in the Federated States of Micronesia. However, INS had
    no records of the two individuals.

·   SSA assigned SSNs to three individuals (ages 27, 31, and 39) purporting to have
    been born in Mexico. These individuals provided documents improperly showing
    them as work-authorized; however, INS had no records of the three individuals.

INS’ Records Did Not Agree with Documents the Individuals’ Presented to SSA

We estimate SSA assigned 20,268 (21 percent) of the 96,274 SSNs to individuals for
whom INS’ records did not agree with the evidentiary documents presented to SSA.
Following are some examples from our review.

·   SSA assigned an SSN to a 27-year-old male purporting to have been born in Japan.
    He presented a work-authorized document to SSA, although INS never authorized
    him to work. Specifically, he presented an INS document indicating he was an
    intra-company transferee and therefore eligible for a work-authorized SSN.
    However, INS reported to us that he was actually the spouse of an intra-company
    transferee and therefore was not eligible for a work-authorized SSN.


SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)            5
·    SSA assigned an SSN to a 56-year-old female purporting to have been born in
     Mexico. She presented a work-authorized document. However, INS had not
     authorized her to remain in the country. She originally entered the country with an
     “H2-B” classification (temporary worker performing services of labor unavailable in
     the United States). She applied for an SSN on December 20, 2000, with INS
     documents indicating her H2-B status. Therefore, SSA assigned the individual an
     SSN. Nevertheless, INS confirmed that her authorization to remain in the
     United States had expired December 1, 2000, and INS found no indication that she
     had applied for an extension. Accordingly, the document she presented to the SSA
     FO when applying for an SSN was invalid/inappropriate.

We estimate 42 percent of the individuals to whom SSA improperly assigned SSNs had
earnings posted to their accounts. We found no earnings posted to SSA records for the
remaining individuals. Although we do not know how these individuals used the SSNs,
we have previously reported that individuals who improperly obtain SSNs often use
them to commit various illegal activities. We referred the improperly assigned SSNs
identified during the audit to our Office of Investigations.

In addition, the General Accounting Office (GAO) addressed the use of improperly
obtained SSNs in recent testimony regarding the challenges facing SSA.15 GAO stated
that the terrorist attacks of September 11, 2001 and the indication that some of the
terrorists improperly obtained SSNs have added new urgency to the need to assess
how SSNs are used and protected. Also, given the widespread use of SSNs, GAO
believes the Agency needs to take steps to ensure it is taking all necessary precautions
to prevent individuals who are not entitled to SSNs from obtaining them. GAO pointed
out that this may require the Agency to find a new balance between two competing
goals: (1) the need to take time to verify documents submitted during the application
process and (2) the desire to serve the applicant as quickly as possible.

SSA HAS TAKEN STEPS TO IMPROVE SSN INTEGRITY BUT HAS NOT
ADEQUATELY ADDRESSED PRIOR RECOMMENDATIONS
We acknowledge SSA’s progress toward implementing recommendations we made in
our September 2000 report, Procedures for Verifying Evidentiary Documents Submitted
with Original Social Security Number Applications. We also recognize it has been less
than 2 years since we issued our prior report. However, our current review indicates
SSA has not adequately addressed all of the recommendations. Given the large
number of SSNs the Agency may have improperly assigned in CY 2000 and potential
homeland security concerns, we believe SSA must expeditiously implement these
recommendations. Implementation may impact the amount of time necessary to
process original SSN applications and require assistance from INS and DoS. However,
we believe these actions are paramount to ensuring SSN integrity.

15
 Testimony on May 2, 2002, before the Subcommittee on Social Security, Committee on Ways and
Means, House of Representatives, Social Security Administration: Agency Must Position Itself Now to
Meet Profound Challenges (GAO-02-289T).


SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)                      6
Of our six prior audit recommendations, SSA adequately addressed two, elected not to
implement one, and did not adequately address three others (Appendix C). First, SSA
still does not independently verify with the issuing Agency all non-citizen evidentiary
documents before assigning SSNs, although SSA's Commissioner recently indicated
her intention to implement our recommendation in the near future. We applaud the
Commissioner's decision and believe this action will considerably improve the integrity
of SSA's enumeration process. Without such measures, the Agency will remain at-risk
to improper SSN attainment. SSA has taken steps to expand document verification by
providing its FOs manual access to DoS’ Refugee Data Center. Additionally, SSA has
provided FOs on-line access to INS’ NIIS. SSA plans to phase in its use at all FOs by
September 2002.

Second, SSA has not yet implemented an Enumeration at Entry program. SSA is
working with INS and DoS to implement the initial phase of the Enumeration at Entry
program, which would reduce the probability of SSA improperly assigning SSNs to
immigrants. While we recognize the significant coordination and resource commitments
required to implement Enumeration at Entry, we are concerned implementation time
frames are too fluid.

Third, SSA has not implemented planned MES controls that would interrupt SSN
assignment in suspicious situations. We understand SSA needs sufficient time and
planning to implement the controls we recommended. SSA is developing a control that
will detect claims of an improbably large number of children. However, SSA does not
plan to release the software for this control until early 2003. Furthermore, SSA has
delayed development of a control that would detect multiple SSN cards going to
common addresses. We believe further implementation delays will only impede SSA’s
ability to prevent improper attainment of SSNs.

In response to the events of September 11, 2001, SSA formed an executive level
Enumeration Task Force to explore and track the Agency’s progress toward completing
of policy and procedural initiatives to further enhance the SSN's integrity. We
acknowledge the importance and value of these initiatives in preventing and detecting
SSN misuse. Of the eight Task Force initiatives, SSA has implemented three, and five
are on-going. The status of these initiatives is detailed in Appendix D. The Task Force
initiatives are as follows:

·   provide refresher training on enumeration policy and procedures, with emphasis on
    enumerating non-citizens, for all involved staff;

·   convene a joint task force between SSA, INS, DoS, and the Department of Health
    and Human Services’ Office of Refugee Resettlement to resolve issues involving
    enumeration of non-citizens, including working out procedures for verifying INS
    documents before SSN issuance;

·   eliminate driver’s licenses as a reason for a nonwork number;




SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)          7
·   provide an alternative to distributing a NUMIDENT printout for SSN verification;

·   lower the age tolerance from 18 to 12 for mandatory interview procedures, including
    verification of birth records before enumeration for all applicants age 1 and older for
    original SSNs and require evidence of identity for all children, regardless of age;

·   determine the feasibility of photocopying (or scanning) all documentary evidence
    submitted with SSN applications;

·   change the MES to provide an electronic audit trail, regardless of the mode used to
    process SSN applications; and

·   implement the SSN Verification System.




SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)              8
                               Conclusions and
                                           Recommendations
Failure to protect the SSN’s integrity can have enormous consequences for our Nation
and its citizens. Now, more than ever, SSA must be particularly cautious in striking a
balance between customer service and SSN integrity. We recognize that increased
SSN integrity measures will impact the time necessary to process original SSN
applications. However, given the large number of SSNs the Agency assigned to
foreign-born individuals who presented invalid/inappropriate INS documents, we believe
SSA should immediately employ preventative controls in its enumeration process.
Failure to do so seriously compromises SSN integrity, which, ultimately, could impact
our homeland security. Accordingly, we recommend that SSA:

1. Continue its plan to expeditiously implement our prior audit recommendation to
   obtain independent verification of all non-citizen evidentiary documents before
   issuing SSNs.

2. Expedite our prior audit recommendation to implement systems controls that would
   interrupt SSN assignment when SSA mails multiple cards to common addresses or
   when parents claim an improbably large number of children.

AGENCY COMMENTS
SSA stated our findings and conclusions were based on a review of SSNs issued before
SSA’s Enumeration Task Force undertook various enumeration initiatives related to the
terrorist attacks of September 11, 2001. SSA also stated that SSNs assigned in the
period covered by the review were not subjected to the same scrutiny as SSNs
assigned in the months following the attacks. Additionally, SSA plans to open
Enumeration Centers in several large metropolitan areas to ensure only qualified
individuals with valid documents will receive SSN cards.

In its response to Recommendation 1, SSA agreed to expeditiously implement our prior
audit recommendation to obtain independent verification of all non-citizen evidentiary
documents before issuing SSNs. SSA stated it has already initiatied verification of INS
documents and is committed to full collateral verification by September 1, 2002.

Regarding Recommendation 2, the Agency stated it remains committed to the long-term
fraud initiatives that would interrupt SSN assignment when SSA mails multiple cards to
common addresses or when parents claim an improbably large number of children. The
Agency responded it has not implemented systems controls because such
enhancements are a complex and difficult undertaking, and its resources have been
used for post-September 11 enumeration initiatives.


SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)      9
SSA also provided technical comments that we considered and incorporated, where
appropriate. The full text of SSA’s comments is included in Appendix E.

OFFICE OF THE INSPECTOR GENERAL RESPONSE
We believe the Agency’s response and planned actions adequately address
Recommendation 1. We acknowledge the steps SSA has taken to strengthen the
integrity of the enumeration process and recognize the Agency’s heightened awareness
of proper SSN assignment. We also recognize that our audit period was before the
Agency undertook various enumeration initiatives in response to the September terrorist
attacks. We believe full collateral verification, once implemented in all FOs, should
significantly improve the integrity of the enumeration process. We plan to assess the
effectiveness of the changes the Agency has made since September 11, 2001 in
Fiscal Year 2003.

Regarding SSA’s response to Recommendation 2, we acknowledge SSA’s commitment
to the long-term fraud initiatives and understand the complexity involved in creating
databases to evaluate relationships that current systems cannot assess. However, we
continue to believe further implementation delays will only impede SSA’s ability to
prevent improper SSN attainment. Therefore, we encourage SSA to commit the
necessary resources to expedite implementation of the systems enhancements we
recommended.




SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)     10
                                      Appendices




SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)
                                                                          Appendix A
Evidentiary Requirements: Foreign-Born Individuals
Applying for Original Social Security Numbers
The Social Security Administration’s Program Operations Manual System (POMS) cites
that applicants for an original Social Security number must establish their age, identity,
and U.S. citizenship or lawful alien status.1 Policy also dictates that at least two
documents are necessary to meet these evidentiary requirements.2 Below is a brief
description of the evidentiary requirements for foreign-born individuals.

Evidence of Age: To establish age, applicants must submit a document, at least
1 year old, that shows the applicant’s name and date of birth or age. Common
examples of documents used to establish age are a foreign birth certificate, passport, or
Immigration and Naturalization Service (INS) record.3

Evidence of Identity: To establish identity, applicants must provide a document that is
of recent issuance and was established at a later time and for a different purpose than a
birth record.4 The most common identity documents foreign-born applicant’s use to
establish their identity are passports and/or INS documents.

Evidence of Work-Authorized or Lawful Alien Status: To establish lawful alien
status and/or the INS-granted work authorization, applicants must present an INS
document.5 The Alien Registration Receipt Card (I-551) establishes non-citizens as
lawfully admitted for permanent residence in the United States.6 Other INS documents,
such as the I-94, Arrival/Departure Record, or the I-688B, Employment Authorization
Document, determine work authorization for nonimmigrants.7




1
    POMS, sections RM 00203.001 and RM 00203.200 A.
2
    POMS, section RM 00203.020.
3
    POMS, section RM 00203.110.
4
    POMS, section RM 00203.200.
5
    POMS, section RM 00203.400.
6
    POMS, section RM 00203.410.
7
    POMS, section RM 00203.500.


SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)
                                                                          Appendix B

Sample Methodology and Appraisal
We obtained a data extract from the Social Security Administration’s (SSA) Modernized
Enumeration System Transaction History File for Calendar Year 2000. From this
extract, we identified a population of 1,266,767 (1.2 million) work-authorized individuals
to whom SSA assigned original Social Security numbers (SSN). We then randomly
selected and reviewed a sample of 250 records.

For each of the sampled SSNs, we verified the foreign-born individual’s immigration
status at the time of the application with the Immigration and Naturalization Service
(INS) or the Department of State (DoS) to determine the applicant’s eligibility for an
SSN. We provided INS and DoS a description of the evidence field office personnel
recorded on the SSN application. For foreign-born U.S. citizens, we verified the Report
of Birth Abroad with the DoS. For non-citizens, we verified the alien registration number
via INS’ Alien Status Verification Index (ASVI) database. Additionally, we manually
verified with INS those records where (1) ASVI displayed exceptions, (2) the applicant
provided SSA with INS’ Arrival/Departure Record, or (3) SSA failed to record an
evidence description on the application. Table B.1 shows our sample size, results, and
appraisal.

Table B.1: Sample Appraisal
       ESTIMATE OF ORIGINAL SSNs SSA ASSIGNED TO FOREIGN-BORN
          INDIVIDUALS WHO PRESENTED INVALID/INAPPROPRIATE
                       EVIDENTIARY DOCUMENTS

  Total population of foreign-born work-authorized individuals          1,266,767

  Sample size                                                                  250

  Number of instances in sample where SSA assigned
  SSNs to individuals who presented invalid/inappropriate
  evidentiary documents                                                            19

  Estimate of instances in population where SSA
  assigned SSNs to individuals who presented
  invalid/inappropriate evidentiary documents                              96,274


  Confidence Level: We are 90-percent confident that the actual number of
  instances where SSA assigned an original SSN to foreign-born,
  work-authorized individuals who presented invalid/inappropriate evidentiary
  documents is between 63,767 and 138,738.



SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)
                                                                          Appendix C

Status of Prior Office of the Inspector General
Report Recommendations1
    RECOMMENDATION 1

Obtain independent verification from the issuing Agency for all non-citizen evidentiary
documents before approving the respective Social Security number (SSN) applications,
until the Enumeration at Entry program is implemented.

      Social Security Administration (SSA) Actions

      ·   SSA has provided its field offices (FO) manual access to the Department of
          State’s (DoS) Refugee Data Center.

      ·   SSA has provided FOs with on-line access to the Immigration and Naturalization
          Service’s (INS) Non-immigrant Information System (NIIS). SSA plans to phase in
          its use at all FOs by September 2002.

      ·   SSA intends to begin verifying all INS documents presented at certain FOs in
          July 2002 and at all FOs by September 2002.

      Evaluation of SSA Actions

      SSA has not adequately addressed this recommendation because it still is not
      independently verifying all non-citizen evidentiary documents with the issuing
      agency before assigning SSNs.


    RECOMMENDATION 2

Accelerate negotiations with the INS and the DoS to implement the Enumeration at
Entry program. Once implemented, all non-citizens should be required to obtain their
SSNs by applying at one of these Agencies.




1
    Status as of June 12, 2002.


SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)         C-1
   SSA Actions

   SSA, INS, and DoS plan to begin the initial phase of the Enumeration at Entry
   program in October 2002. After testing, DoS will begin transmitting data to INS from
   three Foreign Service Posts. Enumeration at Entry will initially include only those
   immigrants who enter the United States as lawful permanent residents and who are
   age 18 or older.

   Evaluation of SSA Actions

   SSA has not adequately addressed this recommendation. While we recognize the
   significant coordination and resource commitments required to implement
   Enumeration at Entry, we are concerned the timelines for implementation are too
   fluid.

 RECOMMENDATION 3

Give credit for fraud detection and development in measuring the performance of FOs
and their employees.

   SSA Actions

   SSA gives FOs credit in their office workload reports for fraud referrals to the Office
   of the Inspector General.

   Evaluation of SSA Actions

   SSA has adequately addressed this recommendation.

 RECOMMENDATION 4

Continue efforts and establish an implementation date for planned system controls that
will interrupt SSN assignment when multiple cards are mailed to common addresses not
previously determined to be legitimate recipients (for example, charitable organizations)
and/or when parents claim to have had an improbably large number of children.

   SSA Actions

   ·   SSA is developing a control that will detect claims of an improbably large number
       of children. SSA does not plan to release the software for this control until early
       2003.

   ·   SSA has delayed development of a control that would detect multiple cards going
       to common addresses.



SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)        C-2
   Evaluation of SSA Actions

   SSA has not adequately addressed this recommendation. While we recognize the
   significant resource commitments required to design, test, and implement system
   improvements, we are concerned that project timelines are too flexible.

 RECOMMENDATION 5


Study the impact of requiring SSN applicants to either provide an actual street address
(that is, do not accept post office boxes) or pick up their SSN at the closest SSA FO.

   SSA Actions

   SSA analyzed this issue and concluded that this requirement would target and treat
   unfairly legitimate users of post office boxes and cause undue hardship for those
   living in rural areas or for those with unreliable modes of transportation.

   Evaluation of SSA Actions

   SSA has adequately addressed this recommendation.

 RECOMMENDATION 6

Propose legislation that disqualifies individuals who improperly attain SSNs from
receiving work credits for periods that they were not authorized to work or reside in the
United States.

   SSA Actions

   SSA maintains that such legislation would be difficult to administer; therefore, the
   Agency has not taken action on this recommendation.

   Evaluation of SSA Actions

   SSA elected not to implement this recommendation. We maintain the
   recommendation would not be difficult to administer since it would be the number
   holder’s responsibility to amend the SSN record if he or she subsequently became
   eligible to reside and/or work in the United States. Since SSA management is
   ultimately responsible for this decision, we will not reiterate this recommendation.
   SSA has modified its policy to eliminate driver’s licenses as a reason to obtain a
   nonwork SSN, effective March 1, 2002. This policy change should reduce work
   credits for individuals not authorized to work.




SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)          C-3
                                                                          Appendix D
Status of the Social Security Administration’s
Enumeration Task Force Initiatives1
          RECOMMENDATION                                       STATUS

1. Provide refresher training on       On-going. In December 2001, the Social Security
   enumeration policy and              Administration (SSA) provided enumeration refresher
   procedures, with emphasis on        training to field office (FO) staff and managers. SSA
   enumerating non-citizens, for       followed up this training with a management review of
   all involved staff.                 Social Security numbers (SSN) assigned to
                                       foreign-born individuals during 1 week in February
                                       2002 that focused on procedural improvements in
                                       FOs. SSA plans to conduct training again during the
                                       summer of 2002.



2. Convene a joint task force          On-going. In November 2001, SSA, along with INS,
   between SSA, the Immigration        DoS, and the Department of Health and Human
   and Naturalization Service          Services’ Office of Refugee Resettlement formed an
   (INS) and the Department of         interagency task force to expedite verifying
   State (DoS) to resolve issues       non-citizen evidentiary documents presented to SSA
   Involving enumeration of            by providing SSA increased on-line access. In
   non-citizens, including working     February 2002, SSA began confirming an applicant’s
   out procedures for verifying        alleged refugee status with the DoS’ Refugee Data
   INS documents before SSN            Center. On May 25, 2002, SSA provided FOs with
   Issuance.                           on-line access to INS’ Non-immigrant Information
                                       System (NIIS). SSA plans to phase in its use at all
                                       FOs by September 2002. SSA intends to begin
                                       verifying all INS documents presented at rural FOs in
                                       July 2002 and at metropolitan FOs in September
                                       2002. In October 2002, SSA, INS, and DoS plan to
                                       begin the initial phase of the Enumeration at Entry
                                       program.


3. Eliminate driver’s licenses as a    Completed. Effective March 2002, SSA’s policy
   reason for a nonwork number.        eliminated driver’s licenses as a reason to obtain a
                                       nonwork SSN.



1
    Status as of June 12, 2002.


SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)        D-1
      RECOMMENDATION                                           STATUS

4. Provide an alternative to giving    Completed. On March 4, 2002, SSA FOs began
   out a Numident printout for         using the Agency’s new printout (NUMI-lite) that
   SSN verification.                   enables verification of an individual’s SSN while
                                       providing minimal identity information.



5. Lower the age tolerance from        On-going. SSA is drafting regulatory changes that
   age 18 to age 12 for                would require (1) mandatory interviews for all
   mandatory interview                 individuals over age 12 who apply for an original SSN
   procedures, including               and (2) identity documents for children under age 7.
   verification of birth records       Effective June 1, 2002, FOs began verifying birth
   prior to enumeration for all        records of all applicants who are applying for an
   applicants for original SSNs        original SSN and are over age 1. SSA is planning a
   and require evidence of             national pilot, with selected offices in the summer of
   identity for all children,          2002, to verify birth records for those children under
   regardless of age.                  age 1.



6. Determine the feasibility of        On-going. In late February 2002 and ending
   photocopying (or scanning) all      March 22, 2002, SSA piloted its photocopying of all
   documentary evidence                documentary evidence in eight offices (two each in
   submitted with SSN                  four regions). Each week, SSA’s Data Operations
   applications.                       Center scanned and indexed the evidence. SSA is
                                       performing Cost-Benefit Analyses for this pilot.



7. Change the Modernized               Completed. In December 2001, SSA implemented
   Enumeration System (MES) to         an audit trail in MES for all SSN applications being
   provide an electronic audit         processed in MES’ batch mode.
   trail, regardless of the mode
   used to process SSN
   applications.


8. Implement the Social Security       On-going. SSA began piloting the on-line version of
   Number Verification System.         its Social Security Number Verification System with a
                                       small number of employers on April 22, 2002.




SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)       D-2
                                                                          Appendix E

Agency Comments




SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)
                                           SOCIAL SECURITY


MEMORANDUM


Date:      July 29, 2002                                                             Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General Draft Report, “The Social Security Administration Continues
           Assigning Original Social Security Numbers To Foreign-Born Individuals Who Present Invalid
           Evidentiary Documents” (A-08-02-12056)—INFORMATION


           We appreciate OIG's efforts in conducting this review. Our comments on the report content and
           recommendations are attached.

           Please let us know if we can be of further assistance. Staff questions can be referred to
           Dan Sweeney on extension 51957.

           Attachment:
           SSA Response




           SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)            E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“THE SOCIAL SECURITY ADMINISTRATION CONTINUES ASSIGNING ORIGINAL
SOCIAL SECURITY NUMBERS TO FOREIGN-BORN INDIVIDUALS WHO PRESENT
INVALID EVIDENTIARY DOCUMENTS” (A-08-02-12056)


We appreciate OIG’s efforts in conducting this review. However, the OIG findings and
conclusions are based on a review of Social Security numbers (SSN) issued before SSA’s
Enumeration Response Team undertook various enumeration initiatives related to the terrorist
attacks of September 11, 2001 and detailed by OIG in Appendix D of the report. SSNs assigned
in the period covered by the review were not subject to the same scrutiny as numbers assigned in
the months following the attacks. We support OIG’s plans to assess the effectiveness of the
changes made since September 11, 2001.

We also wish to note other efforts we have made to strengthen the enumeration process. The
Agency plans to partner with the Immigration and Naturalization Service (INS) and OIG in
opening Enumeration Centers in several large metropolitan areas to ensure that only qualified
individuals with valid documents will receive SSNs and cards. The first Center would be located
in Brooklyn, New York. The Centers will be staffed by SSA, and will also have some INS and
OIG employees on site. Its purpose is to improve the document authentication process, deter and
detect SSN fraud and assist in identifying and analyzing trends and suspicious activities.

Our responses to the specific recommendations are provided below. In addition, we provide
technical comments that we believe will improve the presentation and content of the report.

Recommendation 1

Continue the plan to expeditiously implement the prior audit recommendation to obtain
independent verification of all noncitizen evidentiary documents before issuing SSNs.

We agree. SSA has already committed to full collateral verification of INS documents.
Implementation by our field offices began on July 15, 2002 and will be completed by
September 1, 2002.

Recommendation 2

Expedite the prior audit recommendation to implement systems controls that would interrupt
SSN assignment when SSA mails multiple cards to common addresses or when parents claim an
improbably large number of children.

The Agency remains committed to the long-term fraud initiatives. However, after
September 11th, more immediate enumeration actions were needed which required the same
resources. The long-term fraud initiatives are a complex and difficult undertaking, involving the
creation of databases to evaluate relationships that current systems are not able to assess.




SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)              E-2
                                                                          Appendix F

OIG Contacts and Staff Acknowledgments

OIG Contacts
   Kimberly A. Byrd, Director, Southern Audit Division, (205) 801-1605

   Jeff Pounds, Deputy Director, (205) 801-1606

Acknowledgments
In addition to those named above:

   Charles Lober, Senior Auditor

   Theresa Roberts, Auditor

   Barbara McReynolds, Administrative Specialist

   Kimberly Beauchamp, Writer-Editor

   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-08-02-12056.




SSA Improperly Assigns Original SSNs to Foreign-Born Individuals (A-08-02-12056)
                           DISTRIBUTION SCHEDULE

                                                                          No. of
                                                                         Copies

Commissioner of Social Security                                               1
Management Analysis and Audit Program Support Staff, OFAM                    10
Inspector General                                                             1
Assistant Inspector General for Investigations                                1
Assistant Inspector General for Executive Operations                          3
Assistant Inspector General for Audit                                         1
Deputy Assistant Inspector General for Audit                                  1
 Director, Data Analysis and Technology Audit Division                        1
 Director, Financial Audit Division                                           1
 Director, Southern Audit Division                                            1
 Director, Western Audit Division                                             1
 Director, Northern Audit Division                                            1
 Director, General Management Audit Division                                  1
Team Leaders                                                                 25
Income Maintenance Branch, Office of Management and Budget                    1
Chairman, Committee on Ways and Means                                         1
Ranking Minority Member, Committee on Ways and Means                          1
Chief of Staff, Committee on Ways and Means                                   1
Chairman, Subcommittee on Social Security                                     2
Ranking Minority Member, Subcommittee on Social Security                      1
Majority Staff Director, Subcommittee on Social Security                      2
Minority Staff Director, Subcommittee on Social Security                      2
Chairman, Subcommittee on Human Resources                                     1
Ranking Minority Member, Subcommittee on Human Resources                      1
Chairman, Committee on Budget, House of Representatives                       1
Ranking Minority Member, Committee on Budget, House of Representatives        1
Chairman, Committee on Government Reform and Oversight                        1
Ranking Minority Member, Committee on Government Reform and Oversight         1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        96
                 Overview of the Office of the Inspector General


                                      Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly
present the Agency’s financial position, results of operations and cash flow. Performance
audits review the economy, efficiency and effectiveness of SSA’s programs. OA also
conducts short-term management and program evaluations focused on issues of concern to
SSA, Congress and the general public. Evaluations often focus on identifying and
recommending ways to prevent and minimize program fraud and inefficiency, rather than
detecting problems after they occur.

                            Office of Executive Operations
The Office of Executive Operations (OEO) provides four functions for the Office of the
Inspector General (OIG) – administrative support, strategic planning, quality assurance, and
public affairs. OEO supports the OIG components by providing information resources
management; systems security; and the coordination of budget, procurement,
telecommunications, facilities and equipment, and human resources. In addition, this Office
coordinates and is responsible for the OIG’s strategic planning function and the development
and implementation of performance measures required by the Government Performance and
Results Act. The quality assurance division performs internal reviews to ensure that OIG
offices nationwide hold themselves to the same rigorous standards that we expect from the
Agency. This division also conducts employee investigations within OIG. The public affairs
team communicates OIG’s planned and current activities and the results to the Commissioner
and Congress, as well as other entities.

                                 Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to
fraud, waste, abuse, and mismanagement of SSA programs and operations. This includes
wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters, representative
payees, third parties, and by SSA employees in the performance of their duties. OI also
conducts joint investigations with other Federal, State, and local law enforcement agencies.

                          Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector
General on various matters, including: 1) statutes, regulations, legislation, and policy
directives governing the administration of SSA’s programs; 2) investigative procedures and
techniques; and 3) legal implications and conclusions to be drawn from audit and
investigative material produced by the OIG. The Counsel’s office also administers the civil
monetary penalty program.
